Audit Report




OIG-11-058

SAFETY AND SOUNDNESS: Failed Bank Review of First
Suburban National Bank
February 24, 2011




Office of
Inspector General
Department of the Treasury
 
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NE RAL
                                             February 24, 2011


             OIG-11-058

             MEMORANDUM FOR JOHN WALSH
                            ACTING COMPTROLLER OF THE CURRENCY

             FROM:                 Jeffrey Dye /s/
                                   Director, Banking Audits

             SUBJECT:              Failed Bank Review of First Suburban National Bank


             This memorandum presents the results of our review of the failure of First
             Suburban National Bank (FSNB) of Maywood, Illinois. The bank opened on
             September 7, 1943, and had its main office in Maywood with three branches in
             Broadview, Crestwood, and Chicago, Illinois. First Suburban BC Corporation, a one-
             bank holding company, owned 100 percent of FSNB. The Comptroller of the
             Currency (OCC) closed FSNB and appointed the Federal Deposit Insurance
             Corporation (FDIC) as receiver on October 22, 2010. As of October 31, 2010,
             FSNB had $147.6 million in total assets. FDIC estimated that the loss to the
             Deposit Insurance Fund is $30.9 million.

             Because the loss to the Deposit Insurance Fund is less than $200 million, as set
             forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
             review of the failure of FSNB that was limited to (1) ascertaining the grounds
             identified by OCC for appointing the FDIC as receiver and (2) determining whether
             any unusual circumstances exist that might warrant a more in-depth review of the
             loss. In performing our review we (1) examined documentation related to the
             appointment of FDIC as receiver, (2) reviewed OCC reports of examination, and
             (3) interviewed an OCC problem bank specialist and examination personnel.

             We conducted this performance audit during November and December 2010 in
             accordance with generally accepted government auditing standards. Those
             standards require that we plan and perform the audit to obtain sufficient,
             appropriate evidence to provide a reasonable basis for our findings and conclusions
             based on our audit objectives. We believe that the evidence obtained provides a
             reasonable basis for our findings and conclusions based on our audit objectives.
OIG-11-058
Page 2

Causes of First Suburban National Bank’s Failure
OCC appointed FDIC receiver based on the following grounds: (1) the bank had
experienced substantial depletion of assets or earnings due to unsafe and unsound
practices, (2) the bank was in an unsafe and unsound condition to transact
business, and (3) the bank’s capital had been severely impaired.

The primary cause of FSNB’s failure was the combination of commercial real estate
(CRE) growth and the absence of sound credit administration and risk management
practices. For example, the board and management failed to ensure FSNB’s
compliance with applicable lending limit laws and regulations. 1 The bank suffered
significant credit losses in 2007 and 2008 from exposure to poorly underwritten
loans, including one combinable relationship 2 that was underwritten without
essential controls and in violation of the legal lending limit. The resulting erosion of
capital left the bank in a vulnerable position with capital levels that were unable to
support the high levels of CRE concentrations and other concentrations in risky
unsecured loans. A deteriorating economy and declining CRE market further eroded
the bank's earnings and capital to a critically deficient level.

Conclusion
Based on our review of the causes of FSNB’s failure and the grounds identified by
OCC for appointing FDIC as receiver, we determined that there were no unusual
circumstances surrounding the bank’s failure or the supervision exercised by OCC.
Accordingly, we have determined that a more in-depth review of the bank’s failure
by our office is not warranted.

We provided a draft of this memorandum to OCC management for comment. In its
response, OCC stated that it agreed with our conclusions as to the causes of
FSNB’s failure and that it had no concerns with our determination that an in-depth
review of the bank’s failure was not warranted. The response is provided as
Attachment 1. A list of the recipients of this memorandum is provided as
Attachment 2.




1
  Banks are prohibited from making loans worth 15 percent or more of capital to one person or
multiple loans to a group of related parties.
2
  Loans or extensions of credit to one borrower are attributed to another person and each
person will be deemed a borrower.
OIG-11-058
Page 3

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-0384 or
Theresa Cameron, Audit Manager, at (202) 927-1011.
         OIG-11-058

       Attachment 1
Management Response
                                                   OIG-11-058

                                                  Attachment 2
                                                    Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of Comptroller of the Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
